OIG Investigative Reports, Two Former Barton County Coaches Placed on Federal Probation
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
FOR IMMEDIATE RELEASE
August 14, 2006
U.S. Department of Justice
United States Attorney
District of Kansas
Eric Melgren, U.S. Attorney
1200 Epic Center
Wichita, Kansas 67202
Contact: Jim Cross
Phone: (316) 269-6481
Fax: (316) 269-6420
Two Former Barton County Coaches Placed on Federal Probation
Basketball coach Ryan Wolf was convicted of 4 counts including misapplication
of student assistance funds, 2 counts of theft of federal funds and mail fraud.
Assistant basketball coach Shane Hawkins was convicted of perjury.
WICHITA, KAN. — Two former Barton County Community College
coaches were placed on federal probation Monday. Both had pleaded guilty to
charges arising from an investigation of the athletic program at the junior
college in Great Bend, Kan.
Ryan Wolf, 33, former head basketball coach at Barton, and Shane
Hawkins, 30, former assistant basketball coach at Barton, each were placed
on 3 years probation.
"In addition to probation, Mr. Wolf will pay $122,123.35 in restitution, and
Mr. Hawkins will pay a fine of $1,500," said U.S. Attorney Eric Melgren. "They
also will be required to abide by standard conditions of probation, which include
prohibitions against drug use and possession of a firearm and a requirement
for regular contact with a probation officer. Any serious violation of the conditions
may result in the revocation of their release."
Melgren added: "The government's recommendation of probation in this case reflects
the fact that Mr. Wolf cooperated with investigators and testified at trial."
Wolf pleaded guilty in December to one count of misapplication of student assistance
funds; two counts of theft of federal funds; and one count of mail fraud. Starting
as an assistant basketball coach at Barton in May 1998, Wolf later became head
coach, a job he held through 2003. His duties included coaching the men’s basketball
team, teaching courses, serving as an academic advisor to student athletes and
supervising student athletes participating in the campus and federal work study
programs.
Wolf's Plea
In his plea, Wolf admitted that:
He prepared a Free Application for Federal Student Assistance falsely representing
that Carlton Baker, an 18-year-old resident of Indiana, would have a high
school diploma or GED before he enrolled at Barton. In fact, Wolf was aware
that Baker did not graduate from high school or obtain a GED prior to attending
Barton and therefore did not qualify for assistance. As a result, the U.S.
Dept. Of Education processed the form and approved Baker to receive a Pell
Grant and federally subsidized student loans. Between July 5, 2000, and June
20, 2001, approximately $6,800 was provided to Barton and Mr. Baker through
Pell Grants and federally subsidized student funds.
Wolf knowingly caused time sheets to be prepared and submitted for payment
falsely representing that student athletes had performed work under the Federal
Work Study Program and the campus work study program. As a result, $71,981.75
in campus work study funds and $17,633 in Federal Work Study funds were misapplied.
He committed academic fraud. Specifically, he paid Damon Howard to take
a GED test offered at Warrent Central High School in Indianapolis, Ind., in
the name of student athlete Carlton Baker. Howard passed the test in Baker's
name, and a GED was issued to Baker and made a part of his academic file.
Based on that information, San Jose State University believed that Baker was
eligible to enroll and to play NCAA Division I basketball, when in fact he
was not eligible. The information also had the effect of representing that
Baker was eligible to receive federal student assistance funds, which he was
not.
Hawkins Case
In the other case, Hawkins pleaded guilty in March to one count of perjury.
In his plea, he admitted that he was called to testify before a federal grand
jury in 2004 as part of an investigation by the U.S. Dept. Of Education, Office
of Inspector General, and the U.S. Postal Service concerning allegations that
Barton student athletes were receiving student assistance funds that they were
not eligible to receive. Appearing before the grand jury June 22, 2004, and
being placed under oath, he testified that as far as he knew student athletes
at Barton received work study funds only for work actually performed. On June
2, 2005, when he was interviewed again by federal agents, he admitted that he
lied when he testified before the grand jury.
Melgren commended the U.S. Department of Education, Office of Inspector General,
and the U.S. Postal Inspection Service, for their work on the cases, as well
as Assistant U.S. Attorney Debra Barnett, who prosecuted the cases.
Top
Printable view
Share this page
Last Modified: 09/08/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov